                                  CLOSEOUT FOR M94040015

a
           This case was brought to the attention of OIG on
                 program
                   n i - officer
                          - 1 e hin t
                                                                                by        B
                                                                                 the Directorate
                                                 The program officer had received information
                                                omplainant is a facult member at the University
                                                                         (the second proposal)
                                                          osal was entitled- '
                                                " The complainant alleged that the subject made
                                                           k by another scientist.

            OIG learned that the subject's second proposal was a revision of a previously declined
    proposal (the first proposal). OIG found that the reviewers of the first proposal had commented
    negatively on the PI'S failure to discuss the work (including a recently published book) of
    another scientist in the field that the reviewers thought should have been included in the
    proposal. The subject's second proposal, in part, responded to the first proposal's reviewers'
    comments. The subject said that the other scientist's book had not been published until after the
    subject's first proposal had been submitted. The subject also said that the other scientist's book
    did not "deal intelligently with the kind of evidence [he was] planning to use." OIG noted that
    he had included several references to that scientist's work within the second proposal.

            The complainant alleged that, prior to the first proposal's submission, the subject had
    seen a manuscript of the book as part of an external, confidential tenure review for the other
    scientist. The complainant also objected strenuously to the subject's negative characterization
    of the other scientist's book.

            Panel and mail reviewers for the second proposal reacted strongly and negatively to the
    subject's characterization of the other scientist's book. Among the few faults in the proposal
    that the panel reviewers listed were: "the proposal fails to engage actively the existing literature
    in the area," and "the proposal does not adequately address reservations presented in the
    previous reviews [of the first proposal]. " Reviewers rebuked the PI for what they viewed as his
    inappropriately negative critique of the other scientist's work. The panel recommended that the
    proposal not' be funded.




                                               Page 1 of 2
                             CLOSEOUT FOR M94040015

       OIG concluded that the subject's comments about the contents of the other scientist's
book and his initial failure to cite work by the other scientist may have been inappropriate, but
were not misconduct in science, and that they had been appropriately addressed as part of the
peer review process.

       Therefore, OIG closed this inquiry, and no further action will be taken in this case.




cc:    Staff Scientist, Deputy AIG-Oversight, AIG-Oversight, IG




                                          Page 2 of 2
